fA

C@OQCKLE

2311 Douglas Street Le ] ief E-Mail Address:
Omaha, Nebraska 68102-1214 ga B Ba 19 5 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-1199
DON HIGGINSON,
Petitioner,

v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA; CITY OF POWAY,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of May, 2020, send out from
Omaha, NE 5 package(s) containing * copies of the BRIEF OF CURRENT AND FORMER CALIFORNIA LOCAL
ELECTED OFFICIALS AS AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required
to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:

SEE ATTACHED

To be filed for:
BRADLEY A. BENBROOK
Counsel of Record
STEPHEN M. DUVERNAY
BENBROOK LAW GROUP, PC
400 Capitol Mall, Ste. 2530
Sacramento, CA 95814
(916) 447-4900
brad@benbrooklawgroup.com
Counsel for Amici Curiae

Subscribed and sworn to before me this 6th day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

fy Comin. Exp. Septembar 8, 2023

 

fee | Aone 0. thro Qudrawh, Ch,
V

Affiant

 

Notary Public
Service list, Higginson v. Becerra, No. 19-1199

Attorneys for Petitioner

William Spencer Consovoy
Counsel of Record

Consovoy McCarthy PLLC

1600 Wilson Boulevard

Suite 700

Arlington, VA 22209

will@consovoymccarthy.com

(703) 243-9423

Party name: Don Higginson

*3 copies

Attorneys for Respondents

Alan Brian Fenstermacher
Counsel of Record

Rutan & Tucker. LLP

611 Anton Boulevard. 14th Floor

Costa Mesa, CA 92626

afenstermacher@rutan.com

(714) 641-3452

Party name: City of Poway

*3 copies

Joshua A. Klein
Counsel of Record
Office of the Solicitor General, California Department of Justice
1515 Clay Street
Suite 2000
Oakland, CA 94612-1413
joshua.klein@doj.ca.gov
(510) 879-0756
Party name: Xavier Becerra
*3 copies
Thomas Andrew Saenz
Counsel of Record
Mexican American Legal Defense and Educational Fund
634 S. Spring Street
11th Floor
Los Angeles, CA 90014
tsaenz@maldef.org
(213) 629-2512
Party name: Defendant-Intervenors California League of United Latin
American Citizens, et al.
*3 copies

Attorneys for amici curiae

Christopher Matthew Kieser
Counsel of Record
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
ckieser@pacificlegal.org
(916) 503-9059
Party name: Pacific Legal Foundation, Cato, CEO, Project 21, Reason
Foundation and IRF
*1 copy
